a

No. @JL-

ill

H

«w —

In the
Supreme Court of the United States

In re Edwin Oland Andrus - Petitioner
Vs.
United States of the United States - Respondent

On petition for a writ of
Certiorari to

United States District Court
of the Southern District of Texas
Petition for Writ of Certiorari

Edwin Oland Andrus
Reg.No.: 22026479
F.C.I. Texarkana
P.O.BOX 7000
Texarkana, TX 75505—7000

rlT

U

R LED
SEP 2 2 2021

QUESTIONS

1.

Should

this

PRESENTED

Court grant writ of Certiorari addressing constitutional

issues, correcting a miscarriage of justice that occurred when lower Court
unconstitutionally defined the key elements of a statute so broadly as to make
a new law, destroying the Due Process rights for 35 millions citizens and
eliminating their awareness of what the law demands of them ?

2.

Does the Constitution and Bill of Rights protect individuals regardless

of sexual orientation, race, gender, social status or the type of statute the
persons is accused of ?

3.

When the lower Courts, either use procedural dismissals or just doesn't

rule to avoid ruling on Constitutional issue that caused a jury to find guilty
a factually innocent person.

Should the Supreme Court grant Certiorari to

maintain confidence in the judicial process for the people ?

LIST

OF

PARTIES

[X] All parties appear In the caption of the case on Cover Page

CASES

RELATED
* NONE *

TABLE

OF

CONTENTS
1

Opinions Below

2

Constitutional and Statutory provisions involved

3-5

Statement of the Case

6-13

Reasons for granting the writ

14

Conclusion

INDEX

TO

THE

APPENDICES

Appendix A:

Opinion of District Court, Denial on time limitation.

Appendix B:

General

Order

Petitioners.

to

apply

Automatic

extensions

to

Pro

Se

TABLE

OF

AUTHORITIES

CITED

CASES

PAGE

Summers Vs. United States,
538 F2d 1208 (5th Cir. 1976)

4

United States Vs. Edwin Oland Andrus,
(5th Cir. DEC 14, 2018)

7

United States Vs. Davis,
139 S.Ct. 2319, 204C Ed. 2d 757 (2019)

7,8

United States Vs. Hudson,
7 Cranch 32, 34, 3L. Ed 259 (1812)

7,9

Kolender Vs. Lawson,
461 U.S. 352, 357-358, 103 S.Ct. 1855 75 L. Ed 2d 903 and n. 7 (1983)

7

United States Vs. L. Cohen Grocery Co . ,
225 U.S. 81, 89-91, 41 S.Ct. 298, 656, Ed 516 (1921)

7

United States Vs. Reese,
92 U.S. 214, 221, 23L. Ed 563 (1876)

7

United States Vs. Santos,
553 U.S. 507, 514 (2008)

9

Bell Vs. United States,
349 U.S. 81, 83-84 (1955)

9

United States Vs. Hare,
829 F. 3d 93, 103-104 (4th Cir. 2016) cert, denied 137 S.Ct. 224 (2016)

10

Jacobso Vs. United States,
503 U.S. 540, 548, 118 L. Ed 2d 174, 112 S.Ct. 1535 (1992)

10

United States Vs. Poelman,
217 F. 3d 692 (9th Cir. 1999)

11

Riley Vs. California,
573 U.S. 373, 382, 134 S.Ct. 2473, 189 L. Ed. 2d 430 (2014)

12,13

United States Vs. White,
611, F2d 531, 536 (CA5, 1980)(citations omitted).

13

TABLE

OF

AUTHORITIES

PAGE

STATUTES AND RULES

2,3,5-8

18 U.S.C 52422(b)
Fed. R. Crim. P.

CITED

29

6

Other
LexixNexis

6

Webster's 9th College Dictionary (1985)

6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgement/case below due to District and Appellate Courts refusal to address
the Constitutional issue presented.

OPINIONS

BELOW

[x] For cases from Federal Courts
The opinion of the United States Court of Appeals is not available
due to it’s refusal to Rule on my Constitutional issues presented
leaving my only option to the Supreme Court

The opinion of the United States District Court appears at Appendix
A

to the petition. Where time bar of seven weeks for procedural

dismissal was used to avoid Constitutional issues that cause
conviction.
[X] Is unpublished

JURISDICTION
[X] For cases from Federal Courts:
The date on which the United States Court of Appeals decided my case
was

Not Ruled on

The Jurisdiction of this Court is invoked under 28 U.S.C. S1254(l).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

AMENDMENT

VI

No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time
of War or public danger; nor shall any person be subject for the same offence
to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case

to be a witness against himself, nor be deprived of life,

liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation.

AMENDMENT
The

powers

not

delegated

to

the

X

United

States by the Constitution, nor

prohibited by it to the States, are reserved to the States respectively, or
to the people.

PROVISION

STATUTORY

Title 18 U.S.C. 52422(b)
(b)

Whoever,

using...

any

facility

of

means

of

interstate

commerce,

...Knowingly persuade, induces, entices, or coerces any individual who
has

not

attained

the

age of

18 years,

to engage in...

any sexual

activity for which any person can be charged with a criminal offense,
of attempts to do so...
2

STATEMENT

OF

THE

CASE

Around the last week of December 2016 or first week in JAN 2017, I
received a replay to a add I posted in a personal section of Craig's list. The
personals listing requires a person to acknowledge they are 18 years of age or
older. Being a single male living in the country and working in areas where it
is unlikely to meet women interested in having adult fun. I found this site a
good place for this.
Homeland security Agent Heidi Brower,

trained in art of manipulation

which she admitted in trial, contact me through this add. She presented as a
single mom in her early 30's with a teenage daughter. Then she very quick
turned her communication to me sexual. She went into great detail of how she,
at her daughter's age,

started having sexual relationships with old men. Also

she went into graphic detail the acts she performed and how they positively
effected her growth. Then she went into extreme detail of how her and her
daughter where performing sexual acts on themselves.
All the while,

I made several attempts to get her to meet me along,

without her daughter, because I was truly interested in her. Through constant
erogenous stories and due to my interest in her,.

;was able to induce me in to

expressing interest in what she claimed her and her daughter wanted. After
several attempts on my part to get her to meet alone at my home or in San
Antonio I agreed at her request to come down to her.
On JANUARY 13, 2017., Mr. Edwing Oland Andrus was arrested in the Best
Buy parking lot in laredo Texas while attempting to meet "Allison", a 30's
mother. Then, on JANUARY 21, 2017 he was indicted on

one

count

of

title 18

U.S.C. 52422(b). Mr. Andrus hired Roberto Balli shortly thereafter. At which
time he expressed his belief in his innocence and that the government

3

entrapped him. Also include was a list of favorable witness I provided for
character references.

Subsequently, Mr.

Andrus filed a pretrial Motion to

Dismiss Indictment for lack of evidence, which was denied. Mr. Andrus also
filed a pretrial Motion to Dismiss the Indictment for Lack of Venue which was
also denied by the Court. The Case was tried before a jury, which were not
given conscious
believe

instruction on the element of enticement and were lead to

that comments of willingness or interest constituted that element,

making the trial fundamentally unfair.
This was compounded by the fact that Mr. Balli lead me to believe he was
going to use entrapment defense and put me on the stant to tell my side of the
story, but he didn't, almost guaranteeing a guilty verdict because the jury
has only one side of story and never considered I was the only person enticed
"Defendant alleged that he twice explained facts to his attorney which he
asserts should have at least caused attorney to explain possible defense of
entrapment,
sufficient

with which allegation
to

substantiated

claims

he
of

could possibly
ineffective

prove

set

of

facts

assistance of Counsel"

Summers Vs. United States, 538, F 2d 1208 (5th Cir. 1976).
At the close of evidence, Mr. Andrus made a Motion to Dismiss pursuant
Rule 29 of Federal Rules of Criminal Procedure, arguing that the government
failed to present sufficient evidence that a rational fact-finder jury could
find

that

Mr.

Andrus

attempted to entice a minor.

The Court denied the

Motion...
On Direct Appeal, I allowed Mr. Belli to stay as Counsel because he claimed
that appellate law was his specialty.

He made his entire brief around an

appeal, that was ruled against. Essentially guaranteeing the appeal lost, not
properly arguing the huge Constitutional issues present in the case. He was
equally ineffective out of either pure incompetence or out of a position
induced by the government.
4

I personally researched and discovered that the Court made such a large
Constitutional violations as to eliminate the Due Process for all 35 millions
people

on

the

willingness,

fifth

that

Circuit.

themselves

element of enticement.

They

was

ruled

that

comments

of

interest

actually induced by the agent,

Clearly to express willingness

or

"met" the

to someone that made

such a effort to get that is to be the one being enticed, just opposite of
the element of 18 TJ.S.C. 52422(b).
I presented the Constitutional issue so clear as that the lower Court
could not rebut it since it was supported by the Constitution, the statute’s
wording,

Rule

of

Law,

and

case

Law;

so

they

avoided

addressing

these

Constitutional issues even when there are case laws and rules [See Appendix
B ] that support my Constitutional arguments getting ruled on.
I come now to this great Court because the lower Courts have either used
procedures or just refuse to rule on the far reaching Constitutional issues
I presented and that leaves only this highest Court 1
If

this

Court

fails

to

GRANT

writ

of

Certiorari

unconstitutional and negative precedent to stand,

and

the people of

allows

this

this Union

would lose confidence in our Judicial System, because each and every judge
just make the law what ever they want at that moment, NOT what our elected
officials wrote and passed.

5

REASONS

GRANTING

FOR

PETITION

THE

1. 5th Amendment Violations
Unconstitutionally Broad
1-A.

Mr.

Andrus’s 5th Amendment Due Process rights have been violate in a

multitude of ways. A pretrial Motion to Dismiss Indictment for insufficient
evidence was wrongly denied by the Court.

Upon the conclusion of trial Mr.

Andrus

of Rule 29 of Fed.

made

a Motion

to Dismiss

pursuant

R.

Crim.

P.

showing that by the straightforward reading of statute that the government
failed to present sufficient evidence that a rational factfinding jury could
find that Mr. Andrus attempted to entice a minor.
Title 18 U.S.C. 12422(b).
(b) Whoever, using... any facility of means of interstate
commerce,
...knowingly persuade, induces, entices, or
coerces any individual who has not attained the age of
18 years, to engage in... any sexual activity for which
any person can be charged with a criminal offense, of
attempts to do so...
Lets look at the government's own concise Instructions of what is a violation
of the key elements to persuade, induce, entice, or coerce..•
"...18 U.S.C. 52422(b) DOES NOT criminalize sexually explicit
communcation.
persuade,

It

criminalizes

induce,

sexual activity.

communication

entice or coerce A MINOR

[designed]
[to]

to

engage in

In other words, criminalizes an INTENTIONAL

ATTEMPT TO ACHIEVE A MENTAL STATE-A MINOR'S ASSENT TO ENGAGE
IN SEXUAL CONDUCT"

Cited : LexisNexis

- Webster's 9th College Dictionary (1985) Persuade:

to move by argument, entreaty,
position or course of action.

or

expostulation

to

a

belief,

Induce:

to move by persuasion of influence.

Entice:

to atract artfully or adroitly or by arousing hope or desire,

Assent:

to agree to something esp. after thoughtful consideration.

6

To

truly

understand,

government
induce,

say's

entice

lets

look

at

the

key

element

words,

and

the minor's mental assent caused by enticement.
and

coerce;

all

are

concerted

ultimately resulting in foreseen results;

actions

to

gain

how

the

Persuade,
leverage

therefore, manipulated by abroad.

While assent clearly shows that a person was guided into an action they where
not inclined too.
In United States Vs. Edwin Oland Andrus, Case No. 18-40173 (5th Cir. Dec.
14,

2018).,

willinges,

The
met

Court
the

erred

by

ruling .’’comments

elements

of

enticement”.

suggesting

For

the

Court

interest
to

or

take

a

unconstitutionally broad or overly vague re-definition of key element words
of

a

statute

"undermines

the

Constitution's

separation of

power

and

the

democratic self-governance it aims to protect" United States Vs. Davis, 139
S.Ct. 2319.204L. Ed. 2d 757 (2019). Only the people's elected representational
in

legislature

Hudson,
defining

are

authorized

7Cranch 32,
crimes,

to

34,
the

to

3L Ed 259

"make

an act a crime" United States Vs.

(1812).

It's not the responsibility for

relatively unaccountable

police,

prosecutors,

and

judges; eroding the people's ability to oversee the creation of laws they are
expected to abide "first essential of Due Process of law" fair notice of what
the law demand of them. See Kolender Vs. Lawson, 461 U.S.'352, 357-358, 103
S.Ct. 1855, 75 L. Ed 2d 903 and n.7 (1983); United States Vs. L. Cohen Grocery
Co., 255 U.S.

81,

89-91,

41 S.Ct.

298,

656,

516

(1921); United States Vs.

Reese, 92 U.S. 214, 221, 23L Ed. 563 (1876). It boggles the mind that Congress
would have expressed the straightforward plain writing of the title 18 U.S.C.
§2422(b)

with

its

corresponding harsh punishment of 10 years to life with

Mandatory minimum 10 years. Then intend for the Courts to redefine so broad
in its plain key element words,

as to no longer "give ordinary people fair

warning about what the law demands of them" United States Vs. Davis, 139 S.Ct.
2319,

204 L.

Ed.

2d 757

(2019).

Plus,
7

in reverse sting operations where a

fictitious mother, who is a trained agent of the government, is involved, all
the agent would have to do is induce a person .with erogenous comments that
suggest willingness or interest, but by no means an attempt to entice. By the
government unconstitutionally redefining title 18 U.S.C. 52422(b) it not only
rewrites the statutory text, "would be effectively stepping outside our role
as a judge and writing new law rather than applying the one congress adopted"
United States Vs. Davis, 139 S.Ct. 2319, 204 L. Ed 2d 757 (2019). But it also
runs roughshod over the statutory context by expanding the key element words
of persuade,

entice,

induce and coerce; which is concerted actions to get a

desired result, to the fundamentally different aspect of passive communication
suggesting interest or willingness,

that a agent of the government enticed

through persistent erotica, from Mr. Andrus. A rational factfinding jury, if
given concise instructions of what constitutes a violation of the key element
of title 18 U.S.C. 52422(b) would have found Mr. Andrus innocent of charged
statute,

if presented in a fundamentally fair and without prejudice »

Although Mr. Andrus messages and actions does not represent good precept,
it most certainly, by the plain reading of title 18 U.S.C.52422 (b), DOES NOT
represent criminality on his part. Based on the above facts, the Court erred
in denying Mr. Andrus's Motion to Dismiss this case for insufficient evidence.
Followed by the Appellate Court's

ruling

that lower Courts can violate Due

Process by fundamentally redefine statutes to affirm a unlawful conviction.
This issue is in urgent need of Supreme Court's correction.

I pray for Supreme Court to GRANT petition for Writ of Certiorari then use
it's

judicial

authority

to

correct

Constitution.

8

lower

Courts

departure

from

the

Rule of Lenity
1-B.

In a situation with a trained agent using erogenous messages, where the

agent is

inducing similar messages in return. And by the Court allowing the

statute

to

be

unconstitutionally

expanded

beyond

fundamentally different interest or willingness,

its

text,

to

the

the government has created

ambiguity. With the evidence showing, Mr. Andrus clearly tried to get Allison
(the fictitious mother) to meet by herself, it pushes the ambiguous situation
his way. Even if the Court were to disregard the Constitution and the Supreme
Court's mandate that only Congress is to create and define lavs "make an act
a crime" United States Vs. Hudson, Cranch 32, 34, 3L. Ed. 259 (1819)., and
expand the statutory language into ambiguity, the Rule of lenity would apply
But when there are two equally plausible interpretations of criminal statute,
though the statute was drafted clear, the Court created ambiguity with it's
unconstitutionally broad re-definition of the Law, the defendant is entitled
to the benefit of the more lenient one. "[T]he tie must go to the defendant
[:] The Rule of Lenity requires ambiguous criminal laws to be interpreted in
favor of the defendants subject to them" United States Vs. Santos, 553 U.S.
507,

514

(2008),

See

(1955)(Frankfurter, J.)

also

Bell

Vs.

United

States,

349

U.S.

81,

83-84

"This venerable Rule [the Rule of Lenity, as it is

called] not only vindicates the fundamental principle that no citizen should
be held accountable for a violation of a statute whose commands are uncertain,
or subject to punishment that is not clearly prescribed.
It also places the weight of inertia upon the party that can best induce
Congress to speak more clearly and keeps Courts from making criminal law in
Congress stead" United States Vs. Santos, 553 U.S. 507, 514 (2008).
Therefore, the District Court erred in denying Mr. Andrus pretrial, then post
trial Motion to Dismiss for insufficient evidence.

9

I pray for Supreme Court to GRANT petition for Writ of Certiorari then use
it's

judicial

authority

to

correct

lower

Courts

departure

from

the

Constitution.

Entrapment Argument
1-C.

Due to ,the fact these reverse Stings are completely made up and employ

agents, ssuch as Special Agent Heidi Brower, trained to manipulate or entice
a

person whose add is in an adult personal classified suggesting they are

sexual in nature.

This makes targeting these "appear

[]

highly susceptible

to abuse” United States Vs. Hare, 820 F. 3d 93, 103-104 (4th Cir. 2016) Cert.
denied 137 S.Ct. 224 (2016). The Agent betrayed as a mother (Allison) in her
30Ts, with a teenage daughter ("Abby"), contacted Mr. Andrus through the add
he posted. Mr. had posted the add in the personal section of Craig's List that
requires a person indicate to be 18 years of age or older to access. The agent
selected Mr. Andrus's add due to the fact it was sexually suggestive in nature
and thus making him susceptible to her enticement skills she gained through
training, this was admitted during trial where she testified to manipulating
Mr. Andrus. Very early in the communications, "Allison" sent a picture showing
her beauty,

and started talking about how she was showing and giving "Abby"

sexual pleasures. She, then through almost constant erogenous stories of her
own sexual growth, starting in her early teenage years, talked about how this
positively shaped her. she, then commenced with how she desired to have "Abby"
experience

this

experience.
originate

positive

sexual

growth,

with

her

"in their zeal to enforce the law...
a

criminal

design,

implant

in

an

there

to

share

in

the

Government agents may not

innocent

person's

mind

the

disposition to commit a criminal act, then induce commission of the crime so
that the government may prosecute" Jacobson Vs. United States, 503 U.S. 540
10

548, 118 L. Ed. 2d 174, 112 S.Ct. 1535 (1992).
Through suggestive
Andrus

into

"Allison"

making

wanted.

and enticing comments,

comments

"The

"suggesting

she was able to induce Mr.

interest

or willingness"

in what

United States Court of Appeals for the 9th Circuit

REVERSED AND VACATED... The Appellant Court found that the government induced
defendant to commit the crime referenced where the government agent in her
e-mail correspondence with the defendant made it clear that she believed that
having

the

defendant

as children’s "sexual mentor" would be in their best

interest" see also "the appellate Court held that the jury's finding that the
defendant

was

predisposed

expressed

his

willingness

could
to

not

play

be

sex

sustained

instructor

after
to her

she

kept

on,

he

children" United

States Vs. Poelman, 217 F. 3d 692 (9th Cir. 1999).
In the midst of communications, Mr. Andrus attempted to get "Allison" to come
up alone or to rendezvous in San Antonio without "Abby". Mr. Andrus attempted
to

meet

with "Allison"

"Allison".

alone several

times,

showing a

clear

interest

in

She showed no willingness to come up alone so Mr. Andrus agreed

to come down to her to meet. Upon which he was arrested by Homeland Security.
With Mr. Andrus being a single dad of his daughter, Courtney Ann Andrus,
from when she was 8 years of age, till his arrest, at which time she was 15
years of age, and during that time, as a single dad raising Courtney, she had
her friend stay over routinely. If Mr. Andrus would have been predisposed to
improper behavior with children, it would have clearly showed up in all those
years. What is clear in the case is that the government "originated a criminal
design,

implant

criminal act,

in an

innocent

person's

mind

the

disposition to commit a

the induce commission of the crime so that the government may

prosecute" Jacobson Vs. United States, 503 U.S. 540, 548,
112 S.Ct.

1535 (1992).

11

118 L. Ed 2d 174,

The agent clearly designed the criminal act and enticed Mr. Andrus not only to
express willingness, but to meet. He has clearly shown NO predisposition as a
single dad of a daughter.

I pray for Supreme Court to GRANT petition for Writ of Certiorari then use
it’s

judicial

authority

to

correct

lower

Courts

departure

from

the

Constitution.

2. 10th Amendment Violation
Lack of Jurisdiction
The power for the United States to prosecute a citizen for a criminal
offense is clearly defined under Article 3,

Section 2 of the Constitution,

and in accordance with the 10th Amendment of the Bill of Rights "The power
not delegated to the United States by the Constitution, nor prohibited by it
to the

States, are reserved to the States, respectively, or to the people.”

The Constitution provides no exceptions or previsions for new technology, such
as cellphone, due to the fact that technology is always advancing forward and
would inevitably give the United States judicial authority over each and every
action that occurred wholly within each State. The Commerce clause does not
strip

4th

Amendment

unanimously
Warrant,

held

protection

that

the

from

police

cellphone.

officers

"The

generally

U.S.

Supreme

could not,

Court

without

a

search digital information on the phone."Riley Vs. California, 573

U.S.

373,

382,

134,

S.Ct.

does

not

strip

the

10th Amendment

authority over

2473,

communications

189 L. Ed 2d 430 (2014). Correlatively, it

that

away.

The

transpires

United
over

States

does

conventional

not gain
land

line

telephone to occur wholly within a State, through the commerce clause, even
though the phones themselves are made from components from different States
and countries.
12

And more commerce transpires on conventional land line phones that cellphones.
"More

over,

privacy

the

immense

concerns

storage

with regard

capacity of modern cell phones

to

the

extent

of

implicated

information which could be

accessed on the phone." Riley Vs. California, 573 U.S. 373, 382, 134 S.Ct.
2473,

189 L. Ed 2d 430 (2014). Then, as the immense volume of communication,

text video chat and calls that are private in nature between couples, friends,
and family on cellphones. It would defy reason and logic for a cellphone not
to receive full Constitutional protection, that conventional land line gets.
As such, any and all communications that occur wholly within a State, should
fall to the judicial authority of the State. Being as Mr. Andrus and "Allison"
engaged in the communication unarguably within the State of Texas, and they
both were presumably residing in Texas.

Include to this, there was also no

territorial or subject matter jurisdiction to give the federal government any
judicial

authority.

jurisdiction
territorial

over

a

"The

prosecution

crime

to

sustain

jurisdiction and venue are

must
a

always

conviction

prove
therefor,

territorial
and

thus

’essential elements* of any offense

in the sense that the burden is on the prosecution to prove their existence"
United
Where

States Vs.
again

the

White,

Court

611

errored

F2d 531,
in

536

failing

(CA5,
to

1980)(Citations omitted).

GRANT

a

pretrial

"Motion to

Dismiss" on lack of venue". With those facts and in the conjunction with the
Constitution and the 10th Amendment, the State of Texas has sole jurisdiction
of the Case involving Mr. Andrus. As such the United States has NO judicial
authority under the Constitution to prosecute Mr. Andrus.

I pray for Supreme Court
it' s

judicial

authority

to GRANT petition for Writ of Certiorari then use
to

correct

Constitution.

13

lower

Courts

departure

from

the

CONCLUSION

The petition for a writ of Certiorari should be GRANTED

Respectfully submitted.

Edwin 01and Andrus
Date:

5L3. Scyo &bXl

14

